No. 20-891
In the

Supreme Court of the United States
AMERICAN AXLE & MANUFACTURING, INC.,
Petitioner,
v.
Neapco Holdings LLC, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

BRIEF OF AMICUS CURIAE ALLIANCE OF
U.S. STARTUPS & INVENTORS FOR JOBS
(“USIJ”) IN SUPPORT OF PETITION BY
AMERICAN AXLE & MANUFACTURING,
INC. FOR A WRIT OF CERTIORARI
DIRECTED TO THE U.S. COURT OF
APPEALS FOR THE FEDERAL CIRCUIT
Robert P. Taylor
Counsel of Record
RPT Legal Strategies PC
2443 Fillmore Street, Suite 332
San Francisco, CA 94115
(415) 447-3975
robert.taylor@rptstrategies.com
Counsel for Amicus Curiae USIJ
301520

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I.

The Panel Majority Decision Fails to Comply
with Eligibility Precedents Established by
this Court and with Rule 56, F.R.C.P. . . . . . . . . . 9

II. Investments in Technology Startups in
Our Country Has Been Declining for
More Than a Decade . . . . . . . . . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Alice Corp. v. CLS Bank,
573 U.S. 208, 134 S. Ct. 2347 (2015) . . . . . . . . . passim
Athena Diagnostics, Inc., et al v.
Mayo Diagnostic Services LLC,
915 F.3d 743 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . . . 6
Bilski v. Kappos,
561 U.S. 593 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Diamond v. Diehr et al,
450 U.S. 175 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Gottschalk v. Benson,
409 U.S. 63 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Interval Licensing, LLC v. AOL, Inc.,
766 F.3d 1364 (Fed. Cir. 2014) . . . . . . . . . . . . . . . . . . . 6
Mayo Collaborative Services, et.al v.
Prometheus Laboratories, Inc.,
132 S. Ct. 1289 (2012) . . . . . . . . . . . . . . . . . .  4, 9, 13, 14
Statutes and Other Authorities
35 U.S.C. § 101  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
F.R.C.P. 56 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 13

iii
Cited Authorities
Page
https://papers.ssrn.com/sol3/papers.cfm?abstract_
id=3340937 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
https://www.judiciary.senate.gov/imo/media/doc/
Kappos%20Testimony.pdf . . . . . . . . . . . . . . . . . . . . . . 8
https://www.judiciary.senate.gov/imo/media/doc/
Michel%20Testimony.pdf . . . . . . . . . . . . . . . . . . . . . . . 8
https://www.usij.org/research/2018/7/9/us-startupcompany-formation-and-venture-capitalfunding-trends-2004-to-2017 . . . . . . . . . . . . . . . . . . . 16

1
The Alliance of U.S. Startups and Inventors for Jobs
(“USIJ”) submits this brief as amicus curiae pursuant to
Rule 37 in support of the Petition for Writ of Certiorari by
American Axle & Manufacturing, Inc., et. al., seeking this
Court’s clarification as to what was intended in its Mayo
and Alice decisions. The decision of the Federal Circuit in
the instant case, if left unaddressed by this Court, will add
further confusion to a body of jurisprudence that already
has proven to be difficult if not wholly impenetrable for
courts to apply with any rationality, predictability or
consistency. It is crucially important that this Court grant
the petition and review the decision and opinion of the
panel majority below.
INTEREST OF AMICUS CURIAE
Amicus curiae USIJ is a coalition of 22 startup
companies and their affiliated entrepreneurs, inventors
and investors that depend on stable and reliable patent
protection as an essential foundation for making long term
investments of capital and time commitments to high-risk
businesses developing new technologies (“the Invention
Community”). A list of USIJ members is attached as
Appendix A.1 USIJ was formed in 2012 to address concerns
that legislation, policies and practices adopted by the U.S.
Congress, the Federal Judiciary and certain Federal
agencies were and are placing members of the Invention
1. No counsel for a party authored this brief in whole or in
part, and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief.
No person other than this amicus curiae made a monetary
contribution to its preparation or submission. Amicus USIJ has
provided proper notice to both parties and has the consent of both
parties to file this brief.

2
Community at an unsustainable disadvantage relative to
their larger incumbent rivals, both domestic and foreign,
and others that would misappropriate their inventions. A
disproportionately large number of strategically critical
breakthrough inventions are attributable to individual
inventors, startups, and small companies.
USIJ’s fundamental mission is to assist and help
inform Members of Congress, the Federal Judiciary and
leaders in the Executive branch regarding the key role
that patents play in our nation’s economic system and the
particular importance of startups and small companies
to our country’s continued leadership in strategically
critical technologies that has served us well for nearly
two centuries.
SUMMARY OF ARGUMENT
From the standpoint of many entrepreneurs, inventors
and investors that comprise the Invention Community,
the U.S. patent system appears to be on life support.
Legal protection for inventions and discoveries that
once was a defining characteristic of U.S. industrial
policy has become increasingly irrelevant, no longer
providing adequate safety and incentives to investors
otherwise willing to make high risk commitments of time
and capital or to visionary inventors who would leave
secure jobs to pursue breakthrough technologies and
challenge entrenched incumbents. Although aggregated
investment data might suggest that entrepreneurs and
investors continue to be very active in this country, a
closer look reveals that much of the current focus for such
activity has shifted away from the inventions needed for
strategically critical technologies that are essential if we

3
are to maintain this country’s leadership in science and
technology, shifting instead toward investments such as
entertainment, apparel, social media and the like, which
either do not depend on patents at all or do not consider
enforceable patents to be essential to their businesses.
We discuss this trend in Section II, below.
This growing unwillingness of inventors and investors
to rely on patents as a basis for tackling promising but
risky new technologies is an ominous development that
augurs badly for our country at a moment when we need
them most. Startups, small companies and individual
inventors have been responsible historically for many
of our most important breakthrough inventions. These
entities need patent protection far more than the large
corporate incumbents that own vast portfolios of patents,
and yet it is the former group that is most severely affected
by the systematic weakening of patent protection that we
have witnessed over the last few years. Startups, for the
most part, cannot rely on the large-scale manufacturing,
marketing and worldwide distribution systems enjoyed
by large incumbents, and many have only their patents to
protect them from copyists and pirates who would drive
them from the competitive marketplace.
Although there has been more than one contributor to
the growing perception within the Invention Community
that patents no longer are relevant to protecting long-term
commitments of time and capital, this Court’s current
jurisprudence on patent eligibility, as implemented by the
Federal Circuit and some of the district courts, stands
at or near the top of that list. A number of the Federal
Circuit’s eligibility rulings, in particular, have been
driven by an apparent belief that the appellate court was

4
merely implementing rulings by this Court. We believe
that the Federal Circuit is unduly cautious in a number
of such rulings, certainly in the instant case, and as a
result has expanded the categories of inventions that no
longer are eligible for patent protection well beyond what
was prescribed or even envisioned by this Court. The
panel majority opinion in this case appears to have been
rendered in a search for outcome-oriented theories around
which to find ineligibility that otherwise would not exist.
This is troublesome indeed.
Worse than its dangerous and unnecessary expansion
of what was intended as a “narrow exception” to the
statutory language of Section 101, the Federal Circuit is
hopelessly divided as to a proper interpretation of this
Court’s rulings in Mayo Collaborative Services, et.al v.
Prometheus Laboratories, Inc., 132 S.Ct. 1289 (2012) and
Alice Corp. v. CLS Bank, 573 U.S. 208; 134 S.Ct. 2347
(2015), among others. Differing points of view among the
several judges of that court on this critical issue – some
of such views being irreconcilable with one another – is
magnified many times over for the hundreds of district
court judges hearing patent cases in our country and
who are even more confused in trying to sort out what is
required of them. The disparity of views among the various
judges of the Federal Circuit also means that outcomes
on eligibility often are dependent on the specific panel of
judges assigned to a case, with disastrous uncertainty
facing litigants on both sides.
Numerous judges and users of the patent system have
called attention to the inability of lower courts, including
the Federal Circuit, to arrive at a consistent approach to
Section 101 issues, particularly the proper way to apply
the “two step” test established in the Alice case (134

5
S.Ct. at 2355-58). The panel majority in the instant case,
certainly as viewed by the dissenting judge, appears
simply to have collapsed the two steps into a single step,
which surely was not what this Court intended. (967 F.3d
1285, 1319). Adding further confusion to the analysis of
eligibility is the proper scope of this Court’s recognition
that an invention does not lose eligibility merely because
a claim recites use of an abstract concept. 2 Although this
latter statement may be a truism, pivotal as to outcomes,
its scope, as articulated by this Court, is not perceived by
many lower court judges, including several at the Federal
Circuit, as having limiting principles, thus leaving these
judges of the lower courts free to establish their own. The
level of irreconcilable disagreement among the various
judges of the Federal Circuit in this case is outlined in
detail by Petitioner (Pet., pp. 15 – 17). The even split of
the twelve Federal Circuit judges in denying en banc
review and the multiple dissents and concurrences in
doing so are themselves powerful testimony to the level
of confusion that this Court’s jurisprudence has fostered,
to the considerable detriment of our Constitution, our
country and our ability to remain competitive with the
science-driven juggernaut that the leaders of the People’s
Republic of China aspire to create.
2. E.g., in Alice Corp. v. CLS Bank, 573 U.S. 208, 214 (2015),
the Court reiterated:
“[W]e tread carefully in construing this exclusionary
principle [of ineligibility] lest it swallow all of patent
law. [citation omitted]. At some level, ‘all inventions …
embody, use, reflect, rest upon, or apply laws of nature,
natural phenomena, or abstract ideas. … Thus, an
invention is not rendered ineligible for patent simply
because it involves an abstract concept.” (Emphasis
supplied).

6
The instant case, however, is but the tip of an iceberg in
terms of judicial frustration with the guidance provided by
this Court. Other examples are Interval Licensing, LLC
v. AOL, Inc., 766 F.3d 1364, 1371 (Fed. Cir. 2014) (Plager,
J., “I also respectfully dissent from our court’s continued
application of this incoherent body of doctrine.”); Athena
Diagnostics, Inc., et al v. Mayo Diagnostic Services LLC,
915 F.3d 743 (Fed. Cir. 2019) (2019) (per curiam order
denying en banc review with 8 separate concurrences
and dissents consuming 82 pages) (Hughes, J., “multiple
concurring and dissenting opinions … are illustrative
of how fraught [is] the issue of § 101 eligibility”). The
Congressional Research Service commented on the
Athena case as follows:
“The denial of full-court review in Athena
is noteworthy …. A denial of a full-court
rehearing accompanied by eight separate
opinions has never occurred in the history of
the Federal Circuit. The number of opinions
in Athena indicates that although the judges
are divided on what should be done in view of
current Supreme Court precedent, they view
the section 101 issue as extremely important.”
What we now have at the Federal Circuit is a “panel
specific” approach on a key threshold issue that surfaces
regularly in patent procurement and patent litigation.
Litigants dealing with Section 101 in the Federal Circuit
will know with any accuracy what the outcome is likely
to be only when they see which judges will make up their
panel. This is not the proper functioning of a rule of law,
it is more akin to a casino than to a United States court,
and the longer-term impact will be to diminish one of

7
our country’s most important attributes, our world-class
innovation environment. In its 2018 report on the patent
system, the U.S. Chamber of Commerce, with specific
reference to the patent eligibility issue, observed:
“There continues to be considerable uncertainty
for innovators and the legal community, as well
as an overly cautious and restrictive approach
to determining eligibility for patentable subject
matter in areas such as biotech, business
methods, and computer-implemented inventions.
This seriously undermines the long-standing
world-class innovation environment and
threatens the nation’s global competitiveness.”
International IP Index, published February 2018.
Former Federal Circuit Chief Judge, Paul Michel,
in testimony before the Subcommittee on Intellectual
Property of the U.S. Senate Committee on the Judiciary,
in a hearing on June 4, 2019 addressing, inter alia, the
current state of patent eligibility, called further attention
to the existing uncertainty and its dire implications for
all of the participants in the patent system:
“It is important for me, as a retired judge, to
acknowledge that the courts alone created this
problem. In my view, recent cases are unclear,
inconsistent with one another and confusing. I
myself cannot reconcile the cases. That applies
equally to Supreme Court and Federal Circuit
cases. Nor can I predict outcomes in individual
cases with any confidence since the law keeps
changing year after year. If I, as a judge with

8
22 years of experience deciding patent cases
on the Federal Circuit’s bench, cannot predict
outcomes based on case law, how can we expect
patent examiners, trial judges, inventors and
investors to do so?”
https: //w w w.judicia r y.senat e.gov/imo/media /doc /
Michel%20Testimony.pdf
In written testimony for the same hearing, David
J. Kappos, former Deputy Secretary of Commerce and
USPTO Director, observed:
“Our current patent eligibility law truly
is a mess. The Supreme Court, Federal
Circuit, district courts, and USPTO are all
spinning their wheels on decisions that are
irreconcilable, incoherent, and against our
national interest. … [U]nder current U.S.
law governing patent eligibility, it is easier to
secure patent protection for critical life sciences
and information technology inventions in the
People’s Republic of China and in Europe, than
in the U.S.”
https: //w w w.judicia r y.senat e.gov/imo/media /doc /
Kappos%20Testimony.pdf.
There can be no question that the users of the patent
system and our courts are at sea on this issue and
desperately need navigational tools to find their way. We
urge this Court to grant the Petition and clarify the law
with respect to eligibility.

9
ARGUMENT
I.

The Panel Majority Decision Fails to Comply with
Eligibility Precedents Established by this Court
and with Rule 56, F.R.C.P.

The two-to-one panel decision below is considered
by many observers to be one of the most badly reasoned
decisions that the Federal Circuit has ever allowed to
stand. The panel majority either ignored or rejected the
statutory requirements of 35 U.S.C. §101, and the panel
twisted to the point of absurdity the rulings of this Court
with respect to the judicially created “exceptions.” It is
time for this Court to own up to the chaos and confusion
that its rulings on eligibility have fostered and to use this
opportunity to clarify what actually was intended in its
Mayo and Alice decisions.
Amicus USIJ urges the Court to grant the Petition for
writ of certiorari and to address, at a more focused level,
the reasons why the lower courts, and particularly the
Federal Circuit, are having such difficulty understanding
and applying those decisions. While reasonable minds may
sometimes differ with respect to whether any particular
claimed invention should fall under this Court’s rulings on
ineligibility, no one can seriously question that there exists
virtually no widely accepted set of principles for applying
Alice and Mayo to the many varied factual situations that
are presented by the real world of patent litigation. At the
time they were rendered, this Court may have believed
that those decisions would provide adequate guidance
to the lower courts to deal with eligibility in a rational
and consistent manner. The passage of time has proven
otherwise, as it is increasingly clear that any semblance
of uniformity is not likely or even possible.

10
Exemplary is that this Court’s opinion in Alice was
cautiously limited by the following observation:
“[W]e tread carefully in construing this
exclusionary principle lest it swallow all of
patent law. [citation omitted]. At some level, ‘all
inventions … embody, use, reflect, rest upon,
or apply laws of nature, natural phenomena,
or abstract ideas. … Thus, an invention is not
rendered ineligible for patent simply because
it involves an abstract concept.” 573 U.S. at
214, citing Diamond v. Diehr et al, (450 U.S.
175, 187).
An important addition to the foregoing is that while a
natural law – in and of itself – is not one of the statutory
categories of invention covered by Section 101, and
is therefore not patent eligible, an invention that
makes a practical use of such a law is patent eligible.
“‘[A]pplication[s]’ of such concepts ‘to a new and useful
end,’ we have said, remain eligible for patent protection.”
Id., citing Gottschalk v. Benson, 409 U.S. 63, 67, 93.”
The panel majority, however, and indeed the half
of the full court that refused to rehear the decision en
banc, could not have given proper weight to the foregoing
when they signed off on ineligibility for a patent on a
method for damping vibrations in a steel axle, saying
the claim was directed to a law of nature, “Hooke’s law
and perhaps other laws” (967 F.3d at 1303 - 04). Neither
the specification of the ‘911 patent nor any of its claims
even mentions Hooke’s law or any other natural law, let
alone relies on them or seeks to claim them. The patent
has only to do with reducing vibration in a rotating shaft

11
that is part of a vehicle drive train – a “machine” and
“process” for making it, in the parlance of Section 101,
and beyond question a “new and useful end.” Alice at
214. Moreover, even if the patent did recite the use of
Hooke’s law in calculating a specific design for a specific
dampening collar, this invention still would be the essence
of a practical application that makes use of such law. The
panel majority is simply wrong – and dangerously so –
when it states as the basis for ineligibility:
“Like the claims in Flook, the claims of the
‘911 patent are directed to the utilization of
a natural law (here, Hooke’s law and possibly
other natural laws) in a particular context.” 967
F.3d at 1298.
“Utilization of a natural law” is the essence of what this
Court has said is not a proper basis for finding an invention
ineligible.
It is no answer to say, as the panel majority has
done, that both sides acknowledge that Hooke’s law may
be useful in calculating the forces and deflection in a
rotating shaft. E.g., 967 F.3d at 1292. Numerous formulae
and equations (i.e., “abstract principles” or “natural
laws” if standing alone), are used routinely in calculating
the strength of materials and the forces to which such
materials are subjected in nearly every mechanical
invention that qualifies for a patent today. Indeed, almost
all scientific exploration and technology development use
natural laws and mathematical principles as a routine part
of their respective disciplines. 3 Any of these many other
3. Applied to the instant case, this means that many
calculations (i.e., the application of mathematical formulae and laws

12
laws of nature or mathematical formulas could just as
readily have been seized upon as the basis for ineligibility
in the same way the panel majority seized Hooke’s law.
What is important here is not the background presence of
a natural law used for the design of a drive shaft and its
dampers, it is the practical application itself, which surely
this invention reflects.
The dangers in leaving this jaw-dropping and nonsensical ruling in effect, with all due respect for a lawfully
constituted court of appeals, are palpable. The decision
would subject nearly every patent to an eligibility challenge
and therefore to the whimsical vagaries of judges who may
be confused by the rulings of this Court and the Federal
Circuit or who simply prefer to use their own subjective
views of patentability. For reasons provided clearly and
succinctly by both Petitioner and in the dissenting opinion
of Judge Kimberly Moore, the ruling does expose clearly
the inability of the Federal Circuit to come to grips with
this body of jurisprudence and the devolution of a critical
rule of law into binary outcomes, depending on which
particular set of judges is assigned to hear an appeal.
As the basis for seeking this Court’s intervention, this
division of the Federal Circuit is akin to a split in the
circuits, only much worse for litigants. When there is split
in the circuits, the parties at least know which circuit they
are in at the time the case is filed and can use that as a
guide to how they handle the preparation and trial. Here
of nature) normally would be required to design and manufacture
the drive shaft that that is claimed, not simply those features
related to damping of vibrations. The mass, thickness, torsional
strength, and composition of the shaft itself, for example, would
require the balancing of multiple engineering tradeoffs that then
would be embodied in the shaft.

13
the parties learn the identity of the particular panel on
the morning of the oral argument and so proceed blindly
to the edge of a cliff before they learn whether they are
going to fall off. From the standpoint of managing judicial
resources and the management of legal problems, the
decision is simply intolerable.
The dissenting opinion of Judge Moore identifies
many of the numerous points at which the panel majority
opinion is wrong and that cry out for clarification by this
Court, including the majority’s collapse of the “two-step”
procedure laid out in Mayo and Alice, (967 F.3d 1285, 1304,
et seq.) the panel’s failure even to acknowledge extensive
evidence satisfying the “inventive step” required by Mayo
and Alice (Id. at 1313-14), the detailed descriptions of
the invention found in the dependent claims but ignored
entirely by the majority (Id. at 1318), the cavalier dismissal
of disputed issues of fact contrary to Rule 56 (Id. at 1313),
and the majority’s effort to sidestep the factual foundations
required for the grant of summary judgment based upon
what is essentially the use of ineligibility as a substitute
for a lack of enablement (Id. at 1315).
The approach to patent eligibility reflected in the panel
majority opinion is, if left standing, an open invitation to
infringers to ignore the rights of patent owners and to
district judges and other panels of that court to expand
further the ineligibility of inventions under Section 101,
contrary to the cautionary admonitions in the Court’s Alice
and Mayo decisions. In particular, the unprecedented
injection of enablement issues into an eligibility analysis,
as detailed by Judge Moore’s dissent, expands the existing
ambiguity of this Court’s jurisprudence and increases
further the number of possible ways in which this Court’s

14
rulings on Section 101 issues can be misconstrued by the
lower courts. The Court’s requirement of an “inventive
concept” or “inventive step” can trace its origin to what,
at least arguably, is supported by the use of the word
“new” in the statutory provision. E.g., Bilski v. Kappos,
561 U.S. 593, 602 (“While these [implied] exceptions are
not required by the statutory text, they are consistent
with the notion that a patentable process must be ‘new
and useful.’”). One searches in vain, however, for a similar
statutory basis for conflating Section 101 with a factually
intensive inquiry into enablement.
Nor does the Court’s decision in Mayo suggest
otherwise. There this Court, in rejecting an argument
by the Solicitor General that eligibility under Section 101
should be evaluated independently of Sections 102, 103
and 112, noted that merely because an invention satisfies
those three provisions does not necessarily demonstrate
that it is patent eligible:
“Section 112 requires only a ‘written description
of the invention ... such full, clear, concise, and
exact terms as to enable any person skilled in
the art ... to make and use the same.’ It does
not focus on the possibility that a law of nature
(or its equivalent) that meets these conditions
will nonetheless create the kind of risk that
underlies the law of nature exception … .”)
Mayo at 1304. This is hardly an invitation for lower courts
to conflate enablement and other Section 112 requirements
with an eligibility analysis under Section 101 in the same
way that “novelty and nonobviousness” are used. Indeed,
the Mayo Court seems relatively clear in recognizing that

15
each of the statutory conditions required for patentability
serves its distinct purpose, separate from the others. Id.
The majority panel did not simply insist that
enablement be examined in determining eligibility, the
panel held that it also must appear in the claims. (967
F.3d 1285, 1294-95; 1301 et. seq). This is a truly bizarre
requirement, since enablement is specifically identified in
Section 112 as something to include in the specification,
not the claims. The only requirement in Section 112
addressing the content of claims deals with specificity,
not enablement. Further, and as noted supra, enablement
requires a factual inquiry into whether a person skilled
in the art can learn from the teachings of a patent how
to make and use the claimed invention, hardly something
that appellate judges can simply divine from their judicial
experience. These types of inquires are rarely appropriate
for summary judgment and certainly not here where there
are such conflicting views of the actual facts.
In summary, this case exemplifies – if nothing else –
the extreme level of confusion that continues to dominate
the judicial application of this Court’s eligibility law. It
cries out for this Court’s guidance.
II. Investments in Technology Startups in Our Country
Has Been Declining for More Than a Decade.
The weakening of patent protection in the United
States since 2004 has led to a corresponding decline in
the willingness of entrepreneurs and inventors to rely on
patents as the foundation for making investments. A survey
of 475 venture capital investors across a broad variety
of industries conducted by David O. Taylor, Associate

16
Professor of Law and Co-Director of the Tsai Center
for Law, Science and Innovation, Southern Methodist
University, Dedman School of Law, shows that for those
investors who pay attention to patent eligibility and the
enforceability of the patents owned by their portfolio
companies, there already is a growing unwillingness
to commit time and capital to companies that require
reliable patents to justify investing. https://papers.ssrn.
com/sol3/papers.cfm?abstract_id=3340937. Moreover, not
all investors are fully aware of the declines in the actual
reliability of patents as enforceable property rights; as
that reality becomes more fully understood within the
Invention Community, it is not unreasonable to expect
further shifts away from patent essential industries.
Professor Taylor’s survey is consistent with and
indeed confirms a similar study in 2018 by amicus USIJ
of data collected by PitchBook, Inc. and supplied to the
National Venture Capital Association. Venture capital
investing trends over the period from 2004 to 2017 show
that while the total amount of venture capital invested in
the U.S. over that 14-year period increased by a factor
of four (from approximately $20B to $80B), the portion
invested in many of our most important and strategically
critical industries suffered substantial declines. In 2004,
for example, investments in semiconductors accounted for
1.2% of all the companies that received venture capital
funding and 2% of all the venture capital dollars invested.
By 2017, the number of companies that received funding
for developing new semiconductor technology had fallen
by an order of magnitude and the dollar commitment was
negligible. https://www.usij.org/research/2018/7/9/usstartup-company-formation-and-venture-capital-fundingtrends-2004-to-2017. Similar declines can be seen in
drug discovery, medical devices, operating systems, core

17
networking technology, etc. At the same time, investments
in consumer apparel, hotels, social media and similar
market segments increased substantially.
The following chart, which is copied from Page 9 of the
USIJ study, provides a somewhat broader view of these
significant shifts in venture capital investments:
• Exemplary strategic • Exemplary sectors that
sectors that have declined have increased as a % of
as a % of total VC funding: total VC funding:
◊ Core internet
networking

◊ Social network
platforms

◊ Wireless
communications

◊ Software apps

◊ Internet software
◊ Operating system
software
◊ Semiconductors
◊ Pharmaceuticals
◊ Drug Discovery
◊ Surgical Devices
◊ Medical Supplies

◊ Consumer apparel and
accessories
◊ Food products
◊ Restaurants, hotels
and leisure
◊ B2C companies in
general
◊ Consumer finance
◊ Financial services in
general

• % of total VC funding in
• % of total VC funding in
2004: 20.95%
2004: 11.4%
• % of total VC funding in
• % of total VC funding in
2017: 3.22%
2017: 36.3%

18
The trends reflected in the USIJ study were confirmed
last year by Professor Mark F. Schultz, Goodyear Tire
& Rubber Company Endowed Chair in Intellectual
Property Law and Director, Intellectual Property and
Technology Law Program at the University of Akron.
His report, entitled “The Importance of an Effective
and Reliable Patent System to Investment in Critical
Technologies,” was released July 2020. His conclusions
confirm and strengthen the USIJ Study. It too is available
at www.usij.org/research. These declines in investment
in new strategically critical technologies do not bode
well for this country. Semiconductor technology, to use
but one example, would rank high on almost any list of
the most critical technologies for cybersecurity, artificial
intelligence, national defense and virtually every other
economic activity that depends on computational progress.
Investment in startups likely to develop real breakthrough
inventions in that field of technology has all but vanished.
Although it may be years before the long term implications
of this shift away from critical technologies becomes fully
apparent, the trend line is readily visible today.
Conclusion
USIJ strongly urges this Court to vacate the panel
majority decision and to establish some boundaries on
the extent to which lower court judges are free to find
that inventions lack patent eligibility based on judicially
created exceptions to the clear statutory language of
Section 101. Otherwise, the certainty and reliability
required for a viable patent system will be increasingly
in doubt.

19
Respectfully submitted,
Robert P. Taylor
Counsel of Record
RPT Legal Strategies PC
2443 Fillmore Street, Suite 332
San Francisco, CA 94115
(415) 447-3975
robert.taylor@rptstrategies.com
Counsel for Amicus Curiae USIJ
Date: January 29, 2021

APPENDIX

1a
Appendix
APPENDIX — USIJ
MEMBER COMPANIES
• Aegea Medical
• BioCardia
• DivX, LLC
• EarLens Corporation
• ExploraMed
• Fogarty Institute for Innovation
• ForSight Labs, LLC
• Headwater Research
• Lauder Partners, LLC
• Materna Medical
• MedicalCue
• Moximed
• Original Ventures
• Pavey Investments
• Precision Biopsy
• Prescient Surgical

2a
Appendix
• Puracath Medical
• Rearden Studios
• Siesta Medical
• Soraa
• Tallwood Venture Capital
• The Foundry

